    U.S. DEPARTMENT OF COMMERCE
              Office of Inspector General

 

 


                      Office of the Secretary


                            Commerce Has
                     Procedures in Place for
       Recovery Act Recipient Reporting, but
            Improvements Should Be Made


                         Final Report No. OIG-11-031-A
                                           July 29, 2011




                 FOR PUBLIC RELEASE




                      OIG Office of Audit and Evaluation
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington. D.C. 20230




July 29,2011

MEMORANDUM FOR:                       Barry Berkowi tz
                                      Senior Procurement Director and Director,
                                      Office of Acquisition Management



FROM:                                 Ann C. Eilers
                                      Principal Inspector General for Audit and Evaluation

SUBJECT:                              Commerce Has Procedures in Place for RecovelY Act
                                      Recipient Reporting. but Improvements Should Be Made
                                      Final Report No. OIG-II-031-A

We have attached our final audit report related to our continued review of funds disbursed under
the American Recovery and Reinvestment Act of2009. Our audit objective was to determine
whether the Department of Commerce has implemented sufficient internal controls to ensure that
data related to Recovery Act funds and fund recipients are rep0l1ed completely, accurately, and
in a timely manner, and that any material omissions and significant errors are identified and
corrected. We conducted this review under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated August 31, 2006.

Our review of five of the Department's agencies-the Economic Development Adminish'ation
(EDA), National Institute of Standards and Technology (N 1ST), National Oceanic and
Ahnospheric Administration (NOAA), National Telecommunications and Information
Administration (NTlA), and Census Bureau-found that while Commerce has implemented
effective internal controls over its recipient reporting, there are still opportunities for
improvement. Additionally, agencies could improve data quality by updating their management
systems to more efficiently monitor inforn1ation that must be reported under the Recovery Act.

We received responses to our draft report from the Department, EDA, NIST, Census, and
NOAA. We modified this final report as needed to address the agencies' comments, summarized
the comments in the report, and included the forn1al responses as an appendix. The final report
will be posted on OIG's website pursuant to section 8L of the Inspector General Act of 1978, as
amended.

Please direct any inquiries regarding this report to me at (202) 482-2754, and refer to the report
title in all cOITespondence.



Attachment
cc:   Scott Quehl, Chief Financial Officer and Assistant Secretary for Administration
      Darryl Anderson, Director, Commerce Acquisition Solutions
      Trudy Gallic, Audit Liaison
      Sandi Walters, Chief Financial Officer/Chief Administrative Officer, EDA
      Deborah Neff, Audit Liaison, EDA
      Wesley Dias, Audit Liaison, Economics and Statistics Administration
      Michael Palensky, Chief, Acquisition Division, Census Bureau
      Adam Miller, Audit Liaison, Census Bureau
      Cecelia Royster, Chief, Acquisition Management Division, NIST
      Usha Ganti, Division Chief, Grants and Agreements Management Division, NIST
      Rachel Kinney, Audit Liaison, NIST
      Chad Wagner, Branch Chief Oversight and Compliance, NOAA
      Mitchell Ross, Director, Acquisition and Grants Office, NOAA
      Mack Cato, Audit Liaison, NOAA
      Aimee Meacham, Compliance Specialist, NTIA
      Milton Brown, Audit Liaison, NTIA
                                   Report In Brief
                                           U.S. Department of Commerce Office of Inspector General
                                                                July 29, 2011


Why We Did This Review             Office of the Secretary
This report is part of OIG’s
continued oversight of the $7.9    Commerce Has Procedures in Place for Recovery Act
billion in funds received by       Recipient Reporting, but Improvements Should
five Department of Commerce
agencies (plus OIG) under the      Be Made (OIG-11-031-A)
American Recovery and Rein-
vestment Act of 2009.              What We Found
Our objective was to determine     Our review of five of the Department’s agencies—the Economic Development Ad-
whether the Department has         ministration (EDA), National Institute of Standards and Technology (NIST), National
implemented sufficient internal
                                   Oceanic and Atmospheric Administration (NOAA), National Telecommunications and
controls to ensure that data
related to Recovery Act funds,     Information Administration (NTIA), and Census Bureau—found that while Commerce
projects, and fund recipients      has implemented effective internal controls over its Recovery Act recipient reporting,
are reported completely, accu-     there are still opportunities for improvement.
rately, and in a timely manner,
and that any material omis-        We compared data elements in the quarterly reports submitted by the recipients to the
sions and significant errors are   same information in Commerce’s grants and contracts management systems. While the
identified and corrected.          overall error rate in recipient reporting was low and the data differences were generally
                                   in non-critical reporting fields, Commerce agencies did not identify and correct some
Background                         of the significant data errors on the quarterly reports. In addition, incorrect or inconsis-
                                   tent data in the Department’s three grants management systems meant that Commerce
In February 2009, the Ameri-
can Recovery and Reinvest-         personnel had to perform many manual procedures to reconcile the data to the informa-
ment Act of 2009 was signed        tion in the recipients’ reports.
into law. Section 1512 of the
act requires fund recipients       We found several areas in which Commerce could reduce its reliance on manual effort,
to submit quarterly reports        increase the efficiency of its reporting, and improve data quality. For example, its sys-
containing detailed information    tems could be updated to make data fields consistent with recipients’ quarterly reports.
on the projects and activi-        Also, implementing a single Department-wide management system to replace the three
ties funded by the Recovery
                                   current systems would further streamline processes and increase accuracy.
Act and their impact on job
creation and retention. It also
directs federal agencies to
review this information for        What We Recommended
accuracy before it is posted to
www.Recovery.gov.                  We recommended that Commerce’s Director of the Office of Acquisition Management
The Recovery Accountability        1. evaluate ways to automate the reports generated by the Department’s three grants
and Transparency Board is             management systems;
responsible for coordinating
and conducting oversight of        2. develop a plan for consolidating the data from the three distinct grants management
Recovery Act spending to              systems into a single system; and
help prevent waste, fraud, and
abuse. The board has created       3. consider upgrading the Department’s new contract management system interface so
an online system to collect sec-      that a single database incorporating data from all Commerce agencies would supply
tion 1512 data from Recovery          the information in the interface.
Act fund recipients and pro-
                                   Additionally, agencies could improve data quality by updating their management sys-
vide the information to taxpay-
ers on www.Recovery.gov.           tems to more efficiently monitor information that must be reported under the Recovery
                                   Act.
U.S. Department of Commerce                                                                                                       Final Report
Office of Inspector General                                                                                                       July 29, 2011
 
                                                                  Contents


Introduction ..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 4 
    I.  Commerce Agencies Did Not Detect All Incorrect Recovery Act Data on Recipients’
    Quarterly Reports ........................................................................................................................ 4 
    II.   Incorrect and Missing Data in Commerce Management Systems Affect the Adequate
    Monitoring of Recovery Act Recipients’ Quarterly Reports ...................................................... 5 
    III.  Commerce Agencies Can Improve the Recovery Act Data Quality Process by Updating
    Their Management Systems ........................................................................................................ 6 
    IV.       Recommendations ............................................................................................................ 7 
    V.        Other Matters Noted ......................................................................................................... 8 
    VI.       Summary of Agency Comments and OIG Response ....................................................... 9 

Appendix A: Commerce Recovery Act Funding .......................................................................... 10 

Appendix B: Objectives, Scope, and Methodology ...................................................................... 11 

Appendix C: Recovery Act Data Inconsistencies on Quarterly Reports and Management
Systems ......................................................................................................................................... 12 

Appendix D: Responses to OIG Draft Report .............................................................................. 13 




                                                                           
U.S. Department of Commerce                                                                        Final Report
Office of Inspector General                                                                        July 29, 2011
 
                                           Introduction


In February 2009, the American Recovery and Reinvestment Act of 2009 (Pub. L. No. 111-5)
was signed into law. Section 1512 of the Recovery Act requires recipients to submit quarterly
reports containing detailed information on the projects and activities funded by the Recovery Act
and their impact on job creation and retention. It also directs federal agencies to review this
information before it is posted to the www.Recovery.gov website (see figure 1 on the next page
for an illustration of the process). This
reporting requirement is part of the
President’s stated commitment to provide an
unprecedented level of transparency and
accountability with regard to the use of
Recovery Act funds.
                                                                           The American Recovery and
The Recovery Accountability and
                                                       Reinvestment Act of 2009 (Pub. L. No.111-5) was
Transparency Board is responsible for
                                                          enacted February 17, 2009, to preserve and
coordinating and conducting oversight of
Recovery Act spending to help prevent fraud,             create jobs; assist those most affected by the
waste, and abuse. The Recovery Board has                   recession; increase economic efficiency by
created a system at the website                        investing in technological advances in science and
www.FederalReporting.gov to collect this               health care; invest in transportation, environmental
section 1512 data from Recovery Act fund               protection, and other infrastructure that will provide
recipients and provide the information to               long-term economic benefits; and stabilize state
taxpayers on the www.Recovery.gov website.
                                                                        and local budgets.

The Department of Commerce received
$7.9 billion of Recovery Act funds for six of
its agencies—the Economic Development Administration (EDA), National Institute of Standards
and Technology (NIST), National Oceanic and Atmospheric Administration (NOAA), Census
Bureau, National Telecommunications and Information Administration (NTIA), and Office of
Inspector General (OIG). (See appendix A for a breakdown of funding among these agencies.)
As of March 31, 2011, approximately $2.1 billion of these funds had been expended by the
Department. For the period of our audit, the quarter ending June 30, 2010, about $224 million of
grant and contract expenditures were reflected in the recipient quarterly reports. These reports
were submitted by 320 grant recipients and 137 contract recipients.

The objective of this review was to determine whether the Department had implemented
sufficient internal controls to ensure that recipient data is reported completely, accurately, and in
a timely manner, and that any material omissions and significant errors are identified and
corrected. We have detailed the objectives, scope, and methodology of our audit in appendix B.
We found that, with minor exceptions, Commerce has internal control policies and procedures in
place to effectively review the recipient quarterly reports. However, agencies could improve the
data quality process by updating their management systems so that they can more efficiently
monitor the information required to be reported by the Recovery Act.




                                                  1 
U.S. Department of Commerce                                                                                                                                                                Final Report
Office of Inspector General                                                                                                                                                                July 29, 2011
 
    Figure 1. Recipient Reporting Timeline for Quarter Ending June 30, 2010a


        Reporting Timeline and Activities
                        1 – 14 days             15 – 20 days          21 -22 days                 23 – 29 days              30 days                                                        33- 75 days




                                                                                                                                           31-32 days after end of Quarter - Maintenance
Continuous
                        after end of             after end of         after end of                 after end of           after end of                                                     after end of
                          Quarter                  Quarter              Quarter                      Quarter                Quarter                                                         Quarter**

                         Prime                                         Prime                     Agency
                                                                                                                                                                                            Agency        10
                       Recipients                                    Recipients                 Review of
                        & Subs                                                                                                                                                             Comments
                                                                    Review Data                   Data                     Recipient
                       Enter Draft                                                                                                                                                          on Data
                                                                     Submitted                  Submitted                   Reports
                       Reporting                                                                                                                                                           Submitted
                                                                     By Sub(s)                              7              Published
                          Data                                                    5                                           on
                                 2
                                                                                                                           Recovery.                                                          Prime    11
     Agency,
    Prime and                                                                                                                gov                                                            Recipients
                                                                               Prime
       Sub                       Initial                                                                                               9                                                   Review Data
                                                                             Recipients
    Recipient                  Submission                                                                 Prime                                                                             Submitted
                                                                               & Subs
    Registration                                 3                                                      Recipients                                                                          By Sub(s)
                                                                                Make
                                                                                                          & Subs
                                                                             Corrections
                   1                                                                                       Make                                                                              Prime     12
                                                                                           6            Corrections                                                                        Recipients
                                                    Late                                                              8                                                                      & Subs
                                                 Submission
                                                                                                                                                                                              Make
                                                                4                                                                                                                          Corrections

                                Agency “View Only” and Daily Extract                           Agency Review Period

                                                                            Recipient Report Corrections Possible

Reporting                  Initial                 Late                   Recipient                   Agency                                                                                 Continuous
                                                                                                                            Published
Phase:                   Submission              Submission               Review                      Review                                                                                    QA



                **During the Continuous QA Period, reports may not be submitted, only corrected



Source: Office of Management and Budget
a
  Other recipient reporting quarterly periods have had slightly different numbers of days for each part of the reporting
and reviewing process. We used the June 30, 2010, process because this was the period data was reviewed.

We reviewed all 457 of the Recovery Act quarterly reports received from Commerce agencies
during the quarter ending June 30, 2010, representing 6,443 recipient data entries. We compared
data element information in the quarterly reports to the same information in Commerce agencies’
grants and contracts management systems and found 646 errors or data inconsistencies 1
(approximately 10 percent of the entries reviewed). Of these errors or inconsistencies, we found
the following:

       •      One hundred six errors (approximately 2 percent of all data entries reviewed) were made
              by Recovery Act recipients on their quarterly reports and not caught during the review
              process by the awarding Commerce agency; six of these errors (less than 0.01 percent)
              are classified under Office of Management and Budget (OMB) guidance as significant
              errors 2 but have not been reported to OMB as required.

       •      Five hundred forty inconsistencies (approximately 8 percent of all data entries reviewed)
              were found in Recovery Act recipients’ data information maintained on Commerce
                                                            
1
   The data inconsistencies are a result of our comparison of Recovery Act recipient data being maintained on
Commerce agencies’ management systems to the same data submitted by recipients on quarterly reports to
www.FederalReporting.gov.
2
   Significant reporting errors are defined as those instances in which required data are not reported accurately, and
the erroneous reporting results in significant risk that the public will be misled or confused by the report in question
(OMB M-09-21).  


                                                                                      2 
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                           July 29, 2011
 
       agencies’ grant and contract management systems. This amount consisted of 281
       instances of incorrect recipient data on these systems and 259 instances of required
       section 1512 data not being captured by these systems; the current Commerce systems,
       which were created prior to the Recovery Act and were not updated after it was enacted,
       do not capture all the data required in section 1512 reports.

While the overall error rate in recipient reporting was very low, it came at the price of many
manual procedures being performed by the Department’s grants and contracts personnel to
compensate for errors or inconsistencies. Updated management systems could result in a more
efficient use of time and resources, as well as ensure consistently high data quality and lower
error rates.




                                                3 
U.S. Department of Commerce                                                                           Final Report
Office of Inspector General                                                                           July 29, 2011
 
                                                           Findings and Recommendations


I.         Commerce Agencies Did Not Detect All Incorrect Recovery Act Data on Recipients’
           Quarterly Reports

OMB Memorandum M-09-21, section 4.3, requires federal agencies, recipients, and
subrecipients to establish internal controls to ensure data quality, completeness, accuracy, and
timely reporting of all amounts funded by the Recovery Act. Section 4.2 of the memorandum
requires federal agencies to provide advice or programmatic assistance to recipients, perform
limited data quality reviews to identify material omissions or significant reporting errors, and
notify the recipients of the need to make appropriate and timely changes. These steps are vital
because incorrect data may give users of the www.Recovery.gov website an inaccurate portrayal
of how Recovery Act funds have been spent. Inaccurate or incomplete data does not reflect the
President’s stated commitment to transparency and accountability.

Commerce agencies did not detect, and then require recipients to correct, 106 errors on recipient
quarterly reports for the period ended June 30, 2010 (see appendix C). This resulted in inaccurate
Recovery Act data information being posted on www.Recovery.gov for public viewing. Most of
the incorrect data involved insignificant errors such as primary-place-of-performance ZIP codes 3
and award dates. These data errors affected 75 of the 457 quarterly reports reviewed (table 1).


                                      Table 1. Recovery Act Reports with Errors
                                                NOAA           NIST   NTIA   EDA    Census    Total
                     Contracts                      27          19      -      -      2        48
                     Grants                           3         7      12      5          -    27

                     Totals                         30          26     12      5      2        75
                    Source: OIG Analysis of Agency Data



OMB Memorandum M-10-08, part 1, requires Recovery Act recipients to correct all data errors
identified by federal agencies for the current reporting period, or submit a reasonable explanation
of why a critical data element 4 was not incorrect. If the reporting on the critical data elements is
not corrected, the award report is considered to have significant errors. Six of the 106 errors we
reviewed are categorized as significant. As table 2 shows, the errors were in critical data fields—
the recipient name, award amount, and award numbers—and were distributed over four of the six
reporting agencies. Management did not detect these errors because it relied on a labor-intensive
imperfect manual reconciliation process to review recipient reporting integrity. We discuss this
                                                            
3
   The primary-place-of-performance ZIP code and primary-place-of-performance congressional district data
elements denote the location at which most of the Recovery Act-funded work is being performed.
4
   OMB Memorandum M-10-08 defines the critical element data fields that are of major concern for significant errors
as (1) federal amount of the award, (2) number of jobs retained or created by the project, (3) federal award number,
and (4) recipient name. We did not test for jobs created or retained because we did not go out to recipient sites.  


                                                                        4 
U.S. Department of Commerce                                                                           Final Report
Office of Inspector General                                                                           July 29, 2011
 
process in more detail later in the report. These errors should have been reported to OMB by end
of the quarter, but OIG has not been provided any evidence that this was done.


                        Table 2. Significant Reporting Data Errors
         Critical Data               NIST         NTIA           NOAA           EDA       Totals

         Recipient Name                -            -                1           1          2

         Award Amount                  2            -                -           -          2

         Award Number                  -            2                -           -          2

         Totals                        2            2                1           1          6
          Source: OIG Analysis of Agency Data



II.   Incorrect and Missing Data in Commerce Management Systems Affect the Adequate
      Monitoring of Recovery Act Recipients’ Quarterly Reports

We found 540 inconsistencies between the data reported by the recipients and the information
maintained on Commerce’s management systems. These instances included 281 data entries in
which the agencies’ systems contained incorrect information; in the rest, the systems did not
maintain the information required in section 1512 reports (see table 3 and appendix C). These
inconsistencies have increased the cost of reconciling the quarterly recipient reports with the data
maintained in Commerce systems due to increased employee hours needed to perform manual
reconciliations.


                Table 3. Inconsistent Data in Management Systems
                                    NTIAa       NOAA         EDA         NIST   CENSUS          Total

         Incorrect Data              159          61            31        26          4         281

         Missing Data                 38          98            85        33          5         259

         Totals                      197          159        116          59          9         540
              Source: OIG Analysis of Agency Data
          a
              NTIA awards are handled by either NOAA or NIST.



Of the 281 instances of incorrect data, 220 (approximately 78 percent) were on NOAA’s and
NTIA’s systems. These instances included incorrect awarding and funding agency identification
numbers, primary-place-of-performance ZIP codes, and primary-place congressional district
numbers for certain NOAA and NTIA awards. According to NOAA officials, 61 errors were due
to NOAA incorrectly identifying itself, rather than NTIA, as the awarding agency in cases in
which NOAA had an agreement to administer grants on behalf of NTIA (the actual awarding


                                                        5 
U.S. Department of Commerce                                                                          Final Report
Office of Inspector General                                                                          July 29, 2011
 
agency). NOAA officials also stated that the data fields in their management systems for
primary-place-of-performance ZIP codes and congressional districts only have the capability to
identify the main address for the grant recipients, while the recipient quarterly reports received
on www.FederalReporting.gov show where the grant work is actually being performed as
required by OMB Memorandum M-09-21.

The 259 instances of missing data on Commerce management systems consisted mostly of
missing funding agency identification numbers for NOAA and NIST contract awards and
missing primary-place-of-performance ZIP codes for NTIA, NOAA, and EDA grant awards.
NOAA and NIST contract officials explained that the Federal Procurement Data System-Next
Generation (FPDS-NG) 5 does not require system users to enter funding agency identification
numbers when they are the same as the contracting agency numbers. NOAA officials further
stated that all of NOAA’s discrepancies were corrected in September 2010. NIST and NOAA
officials stated that their management systems do not capture the primary-place-of-performance
ZIP codes from the grant awards. NIST officials also said that NIST’s system does not require
the entry of “ZIP+4” codes, but staff will add the additional numbers to the data entries that had
been flagged as errors during the quarter we reviewed.

III.          Commerce Agencies Can Improve the Recovery Act Data Quality Process by
              Updating Their Management Systems

OMB Memorandum M-09-21, section 3.12, states that “[f]ederal agencies should develop
internal policies and procedures for reviewing reported data” and that “[a]utomated checks for
accuracy may be conducted by comparing recipient data to the award data stored in agency
financial systems of record.”

During our review, we noted that Commerce agencies could improve the Recovery Act data
quality process by updating their automated management systems so that the agencies can more
efficiently monitor the information the Recovery Act requires them to report. While our review
found that the overall recipient reporting error rate was low (less than 1 percent were significant
errors), to achieve these results grants and contracts personnel had to perform many additional
manual tasks that adversely affected efficiency. The following automated management system
improvements would make it easier for Commerce and its agencies to review grants and
contracts data information and identify errors in recipient information:

       1. The implementation of a single Department-wide management system would assist
          Commerce in its data reviews. Commerce agencies currently use three different
          management systems for grant awards. These systems were designed to meet the needs of
          EDA, NIST, and NOAA but are not always updated to meet changing requirements. The
          contracts management system used by all federal departments, including Commerce, is
          the FPDS-NG; however, individual agencies do not have individual input or control over
          this system. Multiple departmental management systems have led to an increased need
          for manual reviews of agency and award data. With the reduced staffing that several
          agencies have reported to us as a possibility in FY 2012, the accuracy of a highly manual
                                                            
5
  FPDS-NG is a single-source database system the federal government uses to report information and data on all
federal contracts.  


                                                               6 
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                               July 29, 2011
 
         process is likely to decrease. In addition, award information requirements may continue
         to change over time; therefore, for ease and accuracy, it is in the best interest of the
         Department to have a consistent management system.

      2. Systems should be updated as needed to reflect changes in federal reporting
         requirements. For example, NOAA grant officials stated that its grants management
         system, Grants Online, does not have fields to capture some critical data, such as the
         primary place of grant performance. Therefore, NOAA has to manually look up data in
         the grant award file to make comparisons in its required review of recipient quarterly
         reports.

      3. By making data entry fields consistent between agency systems and the recipients’
         quarterly reports, agencies would be better able to track the data and correct problems
         quickly. The current systems did not always capture data consistently with the quarterly
         reports. Our review found instances in which management systems limited the number of
         characters in certain data entry fields and other fields that only permitted default entries.
         These limitations made it challenging for agencies to review and reconcile the same data
         element on the recipient quarterly reports. For example, in the comparison of the
         primary-place-of-performance ZIP codes, we noted 189 instances in which quarterly
         reports did not agree with the agencies’ management systems. NIST grant officials stated
         the main reason for the differences was that their management systems only allowed for
         the traditional five-digit ZIP codes, not nine-digit “ZIP+4” codes.

      4. Systems should be modified to permit changes to data. The systems do not always allow
         for changes once the data is entered. EDA grant officials told us that they could not
         update their management system to change a recipient’s Data Universal Numbering
         System (DUNS) number to agree with the number used by the recipient in its quarterly
         reports.

      5. The implementation of a single Department-wide acquisitions management system
         interface would assist Commerce in its data reviews. The contract management system
         used by all federal departments, including Commerce, is FPDS-NG. The Department is
         currently using a web-based product as an interface with FPDS-NG and is in process of
         upgrading to a new product called C-Award. However, this new interface still has a
         significant limitation: C-Award currently uses four separate databases (NOAA, NIST, the
         Department, and Census) to track the contracts that are being reported into FPDS-NG. If
         these four databases were combined into one, it would be useful for running Department-
         wide acquisition queries and complying with Recovery Act reporting requirements.

IV.     Recommendations

We recommend that Commerce’s Director of the Office of Acquisition Management

      1. Evaluate ways to automate the reports generated by the Department’s three grants
         management systems. This automation will help to ensure that recipient data are
         accurately reported and that agency staff uses the most efficient process to review data.



                                                   7 
U.S. Department of Commerce                                                                             Final Report
Office of Inspector General                                                                             July 29, 2011
 
         2. Develop a plan for consolidating the data from the three distinct grants management
            systems into a single system that can provide accurate and comprehensive data feeds to
            public websites such as www.Recovery.gov. 6

         3. Consider upgrading the new C-Award contract system so that a single database
            incorporating data from all Commerce agencies would supply the information in the
            interface. This would assist the Department in running acquisition queries, resulting in a
            less manual process for data comparisons and reporting to public websites such as
            www.Recovery.gov.

We also recommend that Commerce agencies implement the following improvements for
reviewing Recovery Act recipient data so that significant errors do not occur:

         1. Ensure that the management systems used by the agencies can be updated to incorporate
            Recovery Act reporting requirements.

         2. Establish the ability to make corrections to data once they have been entered into the
            agencies’ management systems.

Improvements in these areas would make it easier for the Department and its agencies to review
grants and contracts information and identify errors in recipient data information, thus reducing
the manual effort currently involved in the review process.

    V.        Other Matters Noted

In addition to the data inconsistencies noted previously, we found the following issues in the
quarterly reports we reviewed:

         •    Nine reports showed incorrect award amounts in the FPDS-NG. While the agency
              involved (NOAA) is aware that the amounts reported are incorrect in FPDS-NG,
              Commerce agencies do not have a way to correct the award amounts after the first
              invoice has been received. Officials stated that the award amounts reported to
              www.Recovery.gov are correct.

         •    Seven recipients were considered noncompliant 7 by OMB for not submitting their
              quarterly reports by the due date. The recipients gave various reasons for their
              noncompliance, including not understanding the reporting process and having difficulty
              with the www.FederalReporting.gov registration process. These instances of
              noncompliance were corrected in the subsequent quarter, and the recipients are being
              monitored to ensure they continue to submit reports correctly.



                                                            
6
  A similar recommendation was included in OIG report ARR-19779, More Automated Processing by Commerce
Bureaus Would Improve Recovery Act Reporting, dated December 2009.
7
  Noncompliant recipients are those who have failed to submit a section 1512 report as required by the terms of their
awards.  


                                                               8 
U.S. Department of Commerce                                                                            Final Report
Office of Inspector General                                                                            July 29, 2011
 
       •      Two reports included instances that revealed administrative or technical issues. 8 One
              such issue occurred in the period ending June 30, 2010. Both have also been corrected by
              recipients.

VI.           Summary of Agency Comments and OIG Response

We received and reviewed agency responses to our draft report. Formal responses were sent by
the Department, NIST, and NOAA; EDA and Census submitted informal comments. Because its
awards are handled by NOAA or NIST, NTIA had no comments on the draft. In general, the
Department and the agencies that responded concurred with our findings. We have modified this
final report to address their comments, and have included the formal responses as appendix D.




                                                            
8
 OMB M-10-14 states that administrative or technical issues include (but are not limited to) duplicated reports,
unlinked reports, or technical issues relating to a record identifier. 


                                                               9 
U.S. Department of Commerce                                                                            Final Report
Office of Inspector General                                                                            July 29, 2011
 
                               Appendix A: Commerce Recovery Act Funding

(in thousands)
Economic Development                                Grants to economically distressed areas to support efforts to
Administration (EDA)                                create higher‐skill, higher‐wage jobs by promoting innovation
                                        $ 150,000
                                                    and entrepreneurship and connecting regional economies with
    $150,000                                        the worldwide marketplace

Census Bureau                                       Hire new personnel for partnership and outreach efforts to
                                                    minority communities and hard‐to‐reach populations, increase
$1,000,000                              1,000,000
                                                    targeted media purchases, and ensure proper management of
                                                    other operational and programmatic risks

National Oceanic and                     230,000    Habitat restoration, navigation projects, vessel maintenance
Atmospheric Administration
(NOAA)                                              Construction and repair of NOAA facilities, ships, and
                                         430,000    equipment; improvements for weather forecasting and satellite
$830,000                                            development

                                         170,000    Climate computing and modeling

National Institute of                               Laboratory research supporting economic growth and innovation
Standards and Technology                 220,000    through competitive grants, research fellowships, and advance
(NIST)                                              measurement equipment

                                         360,000    Maintenance and renovation backlog

$610,000                                            Funds from the Department of Health and Human Services for
                                                    standards-related research on medical records; from the
                                          30,000    Department of Energy to develop a framework for an
                                                    interoperable smart grid for the U.S. electric power system


National                                            Broadband Technology Opportunities Program—awards to
Telecommunications and                              eligible entities to develop and expand broadband services to
                                        3,890,000
Information Administration                          rural and underserved areas and improve access to broadband
(NTIA)                                              by public safety agencies

                                         350,000    Broadband inventory mapping
                           a
$4,690,000 Broadband                     250,000    Sustainable adoption of broadband services

                                         200,000    Upgrade of public computer centers

$650,000 Converter boxb                  650,000    TV converter box coupons

Office of Inspector General                         Oversight
                                          16,000
$16,000

                Total                   7,946,000

a
    Since subject to $302 million rescission.
b
    Since subject to $240 million rescission.




                                                        10 
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                              July 29, 2011
 
                    Appendix B: Objectives, Scope, and Methodology

Section 1512 of the American Recovery and Reinvestment Act of 2009 requires recipients to
report funding and project data to www.FederalReporting.gov. The objective of our review was
to determine whether the Department of Commerce has implemented sufficient internal controls
to ensure that recipient data is reported completely, accurately, and in a timely manner and that
any material omissions and significant errors are identified and corrected.

During this review, we performed the following activities:

    •   Interviewed Commerce’s Recovery Act staff to obtain an understanding of the steps
        performed in reviewing and analyzing data received from www.FederalReporting.gov.
    •   Interviewed contract and grant staff responsible for Recovery Act awards to obtain an
        understanding of how they ensure accuracy, completeness, and timeliness of the data.
    •   Reviewed internal controls to determine how the staff is monitoring material omissions,
        significant errors, anomalies, and other administrative or technical errors in the data.
    •   Determined whether policies and procedures were in place to remediate systemic and
        chronic reporting problems, including ways to handle non-reporters.
    •   Conducted a 100 percent review of recipient-reported data on quarterly reports submitted
        through www.FederalReporting.gov and electronically compared them with the
        information in the agency-owned systems to determine the accuracy and completeness of
        the data submitted for the quarterly period ending June 30, 2010.

We also examined the Recovery Accountability and Transparency Board’s Data Quality Review
Guide, which provides additional guidance to the inspector general (IG) community for assessing
bureaus’ plans for ensuring data quality of Recovery Act recipient reporting. IG offices use the
guide to conduct audits to determine whether each bureau receiving Recovery Act funding has
established a process to perform limited data quality reviews. These reviews are intended to
identify material omissions and significant reporting errors, as well as notify the recipients of the
need to make appropriate and timely changes.

We conducted this performance audit from July 2010 through March 2011 under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated August 31, 2006. We conducted this audit in accordance with generally accepted
government auditing standards, which require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained does provide a reasonable basis
for our findings and conclusions.




                                                 11 
U.S. Department of Commerce                                                      Final Report
Office of Inspector General                                                      July 29, 2011
 
                         Appendix C: Recovery Act Data Inconsistencies
                         on Quarterly Reports and Management Systems


                                         Quarterly Reports

    Data Elements                     NTIA/              NTIA/
                             NOAA             NIST                EDA     CENSUS      TOTALS
                                      NOAA               NIST
    Funding Agency ID                               1                        7             8
    Primary-Place-of-
                                9                   13       8       3                     33
    Performance Zip Code
    Award Date                  6                   9        2       2       1             20
    Award Missing from
                                16                                                         16
    FederalReporting.gov
    Activity Code               4                   1                                      5

    Other                       8        1          11       1       2       1             24

    TOTALS                      43       1          35       11      7       9            106

                                       Management Systems

    Data Elements                     NTIA/                       NTIA/
                             NOAA             EDA        NIST             CENSUS      TOTALS
                                      NOAA                        NIST
    Awarding Agency ID                  65                                                 65
    Funding Agency ID           35                           23                            58
    Recipient
                                5                   8        2                             15
    Congressional District
    Primary-Place-of-
                                47      43          60       18     36       1            205
    Performance Zip Code
    Primary-Place-of-
    Performance                 23      22          8        1                             54
    Congressional District
    Award Amount                7                            3               1             11
    Award Date                                      1        4       1       2             8

    Award Disbursements         10      12          38       6      16       5             87
    Award Missing from
                                15                                                         15
    FederalReporting.gov
    Other                       17                  1        2       2                     22

    TOTALS                     159      142     116          59     55       9            540
Source: OIG Analysis of Agency Data

 


                                              12 
U.S. Department of Commerce                                                                              Final Report
Office of Inspector General                                                                              July 29, 2011
 
                         Appendix D: Responses to OIG Draft Report


Department Response




                                                                UNrTaI STATES tJEPAln'MENf OF COMMERCE
                                                                ou.t Fn...a.I Officer _
                                                                 _ _ s.cr-.ry for Ad,,"aco ali<w,
                                                                ~llC.20230
                  JUL 1i lOll

            MEMORANDUM FOR:              Ann C. Eilers
                                        ~tor                 Gene",] for Audit and £\'aluation

            FROM:                        ~k
                                          Senior Procuremcn! Exe<:uti~e
                                           and DireOlOr for Acquisition Man.gemen!

            SUBJECT:                      Commuce lI"s Proced'ues in Pluct'ft" Reeo"t'T)' ACI
                                          RecipietU Reponinl;. but /mpro\"l'metl/s Should Be Mode
                                          Draft Rqx,"

            Thank you for the opportunity 10 commcnt on the draft l'I'JX'rt from the Office of
            lns~tor G('f\eral (DIG) emitled Commerce lias f'r(J('edurc.< ITl Piua jQl' Recovery ACI
            Ruipien, Rep<1l'ting. butlmprm'l'menu Should Be M"de. TIM: Office of Acquisition
            Management grncrall)' concurs "ilh the findings and n,commcndatioTl3.

            If you have any questions N:i:3rding this response. please contact Virna Winters at
            V" intcrs@'doc.Go\·or202-482-3483.




                                                          13 
U.S. Department of Commerce                                                                                                   Final Report
Office of Inspector General                                                                                                   July 29, 2011
 




NOAA Response (p. 1)



                                                 /~j'\         .... 'T.D .TAT"
                                                               ....,_.' _            An" A
                                                                                                 NT 0" CO• • • •C•
                                                                                                               'n,    "....
                                                 \ .....1      CHIEF AOMINISTRATIVe OFFICER




          July 15. 2011


          ME.\IORANDUM FOR:


          FRO.\!:


          SUBJECT,                          DOlfl OIG Rcpon ~ c.'<NII"",ru 1/",1 l'rlJ<""I"u.' in 1'/(,..<, jm'
                                            H,-cm"".\' Act Hed/,;"", Rep".-/;"". b'III",W"'"""'''''''' !ilwllid H"
                                            Millie


          Than~ y'>1I for (he "l'fI"nunoly 11.1 L'l'llln,.,m on the om,c of III.: In'rec1or Gcncml', dr-1ft '''flOn
          or il> I'll' iew of American R,...,,,.'cry and Ikin_eSlmell' ACI fund_ di,llu ......'d by Ihe NW'(><l,t1
          OccamI' Md AmlO!'phcnc Adm,mSlr.nioll. Our ,['Cel nc commenh On the ~""n', finding, ""d
          n:<:omn",rnla'iofl.' arc al1.>ChiXI.

          Anochmcl1l




                                                                  14 
U.S. Department of Commerce                                                                                      Final Report
Office of Inspector General                                                                                      July 29, 2011
 




NOAA Response (p. 2)

                                                l.k'pHlmcn. or l.:ommcrrc
                                 Nali,,",,1 lXcanic and AlI"osl,heric ,\dn.iniSl"'-,1 i,,,,
                                     C"mmcnl.~  "n     lh~ Ilmn OIG R,·por. En1H1<'lI
                "COt1l1nCre~   /las I'rorcdu ..... in 1'1""" r"r R""',,"u)' Arl Redl,ienl Rel'"ning. bu.
                                            Impro,'cme"l' Sbould lie ~t;,d.·"
                                             (t\!U{,\-(lUUtO&lJune 15, ZOII)


          (;cn"I"~1   C"m",,'nl,

          The: lXpartmenl "(Commerce',, National Oceanic and Almosphcric Adtllini~tmtion (NOA,\)
          aPflrer;ates the ron,idc,.~blc time and cffOrl of lhe Offirc of In.'pecmr General (OIG) in
          condoctin£ it, re,';ew of l{coco'-cry Act recipient reponing pmetire' within NOAA,



           Reo,:unm.cndalion I: "'En,ure that the management 'y,tcm, u>Cd ean be ,'pdated lO IRCO<'Jl'O!'ale
           Re<.-o'-ery ,\t-I reponing "-"<Juiremenl,."

           NO,\A Response: We coorur. The Granl' Online granl' m"m'gemcm 'y,'em is" eU'lOm;z<od
           imemal ')'''cm ~nd change,' can hi: ma<lc wllh proper approvab. If a""w Rerm-ery Art
           repuning requm:m"nt i, j(lcmified amI "",,,,,,itale., a changc to lhe NOAA Gra"" Online
           man~gcmem 'y<tem. the aPfln:>priatc 'Y"tcm gO"crn~nc" proce" will n,'Cd 10 hi: follow,od 10
           Implemenllhe ebanb'C. Any f"'ure changes \till be dependenl upon the av"ilabilily of fundmg
           nccc,sary 10 Cffttllhe 'y,'em chan!,'C.

          A, nored in the OIG' • reporl. G"am~ Online doc' nOl haw a field 10 "apl",e the primory placc of
          grunl performance, Therefore, Ihi, "a, ,-criflcd f(}l" e,,"-,h award and lhcn manually entered mlO
          USAspendmg,gov. the public ",archable wc""ile eslabli,hed by ,he Office of Managemenl
          Boogcl 10 nxeive and d"play dala pert"ining 10 obligalion, of Fede,.~1 awards. Since lhe
          primary place of gmnl perfomlUnee datil field i.' only required for ARRA funded j!.,,~nh," lI,eh
          accounled f(}l" only IIl",c percenl of NOAA granl> pl\x.-.:,>Cd in fi«'al year 2009. NOAA made lilt'
          dt'Ci,ion r,N 10 modify Ihe G,.~nt, Online 'y>lem.

          Rffo",",cnduliotl Z: '-E,labli,h Ihe abil1ly 10 l1la~e   corr~'Ctiom   to dala oocc Ihey ha'c been
          entered inlo the "genei",' managemenl 'ySlem....

          "';OAA Resp"""." We concur. NOA,\ eum:n11 y lIa, ,he ability to ma~e correclioo, 10 dala
          enlen:d inlo boIh NO,\A Granl, Online and C-Buy.lhr Depanmcnl ofCommcrre procuremenl
          and acqui,illon 'y,lem




                                                           15 
U.S. Department of Commerce                                                                                        Final Report
Office of Inspector General                                                                                        July 29, 2011
 




NIST Response (p. 1)


                                                                   UNITED BTATlES DEP,&,RTMENT DF CDMMERCE
                                                                   ~ InBtit~..        '" S . . - . _     T_lc>gy
                                                                   ~.            Mirvbrd 20099·


          "dUL 262011
           MEMORANDUM fOR Ann C. Eilers
                          Principalln>'nligatQr General for Audit and E,,,tLmlion

           From'             GwrgeE.Jenkim        QJ~ "A".             dlA.A'
                             Chief Financial Officer   -   (J   ... O~--'

           SUbjecl:          NIST Comment< on "Commertc Has ProceduI'CS in Place for Reeo"cry ACI
                             Recipient Reporting. bUI Impro"ements Should Be Made"

           The follo"'ing commenlS arc offered in re"iewoflhe Office of Inspe<:lOr Geneml', <Ubj"l draft
           audil rcporl. datcd June IS. 2011, relaled to the American Recovery and Rein,'eSlment Act
           (ARRA)of2009.

           Gnot. and ,\grN'mrnh Management lIi,";,;nn IG,\Mlll

           "age II. 5...,tioo I\'

           I. Ensure that lhe mlU\ltgemcnl <YSlcm, u<;ed can be updaled to incorporate Recovery Act
              reponing requirements.

           The Natinnal lnsriturc OfSlaooards and T..choology (NIST) is aware Oflhe iss"" and has
           revie,,-ed the reporl along wilh the a<<<>eialed data lhat was based upon ARRA Quane,ly Repons
           that were submitu:d for the 2nd Quaner of calendar year 2010. which ended June )0, 2010. As
           dClaHcd in Appendix C ofthc reporl. the majority of lhe data inconsistencies in the a"-ards
           managed by NISTs GAMD included rhc recipient>" primary piKe of performance. funding
           codes and award dales. Since those reports ,,"ere <ubmilted. the GAMD has Up',"led the GranlS
           ManagemenllnformatiOn SySlem (G~lJS) to include the Primary I'lace of PcrfOITfl3l1CC for all
           ARM award. All incorrect fWldingcodC's and a"'ar<! dalC!< ha"e been corrected, and the ARM
           reporting " ..b,ite. wwwFe!kralReooninsuo\",hubeenupdated100fferrecipientsalool
           de,igned <p""ifically to faciliUlte aceUlllle. repel;tive rcporling of funding codes, award dates,
           and other additional informalion requited in all ARRA Quanerly Reports. The "copy forward"
           1001 allows the reporting recipients to autornatieaHy ",prod""c signifieaol quantity of data.
           mcntioned above. into new ARRA Quarle,ly Kepons, "'hith not onl)' sa"c, rtporting timc. but
           alro climinales Ihe thance for lypographical data entri~ 10 fIeld, in Ihe ARRA Quancrl)'
           Repons.

           P~gc 8.    S...,tion IV

           2. Establish the ability to make oorrcctions to data onec the)' ha"c been c:ntered into lht
              agcncin' management sy'lelTlll.




                                                                                                         NlSr



                                                                 16 
U.S. Department of Commerce                                                                             Final Report
Office of Inspector General                                                                             July 29, 2011
 




NIST Response (p. 2)

             NIST is DWare of the issue and plans enhancements to GMIS during lhe next fiscal year 10
             ~UlOfl\ateuploading of revi$e'll g.ranHeialed informal ion to US,\Spen<!;ng,gov during monthly
             updates. This "ill ensUJ'C' llCcul1lCY Qf specific g.ranHelatcd ;nfQrmation lhat has been re\';sed
             during lhe pre,-ious month on USASpen<ling,go,' within 30 da)'s of lilt change via an automaled
             ~. This wi11 replace current method which requires the GAMD Grnnls Specialists to make
             individual reqUl:slll to the GAMD GMIS Coordin~lor to upload newl)' revised informal;on for
             viewing by the public on """v. USASprndjOlI,guV.

             t'eQul,il;On l\Iaoal:cmeollli"jsion (Al\Illl

             hgt 4. Seetion 1

             Some ohhe ZlI' code errors were made On the last 4 digits of 9 digit ZIP codes. In addition. lhe
             Central ConU1><ts Registry (CCR) m:ipients provided different ZIP codes for the same a"'lIrd in
             the CCR registration and the \\)\W.fes!emlreoonjnM.!l9v repon.

             Page 5, Section I. Table!
             The lwo NIST ;ocorre<:t contract amoums h"'e been corrected.

             Pagt 6, Section II
             'rne funding agency identification code in FPDS ,,-as oot a mandalory field ulllil Apri!. 2010,
             Since then, all F"PDS repons must include lhe funding agency id\'1l\ification codes.
             There are too many managemelll5ptcms. The contmcts personnel once again have to manually
             review and enter data numerous times

             Page 8. Section IV 113

             NIST would suggest e"emually upgrading tu a whole     l\C:Vo'   sy.'tem. The CSTARS system does
             OOt compare to others on tile market.




    (ARRA–000108)



                                                        17 
